Via Electronic Filing

September 8, 2021

Danny Bickel
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

No. 21-209, Southwest Airlines Co. v. Latrice Saxon

Dear Mr. Bickel:
Pursuant to Rule 30.4, I write to seek an unopposed extension of the time to file a
response to the petition for certiorari in this case. The response is currently due on September
30, 2021. I request a 30-day extension, to and including Monday, November 1, 2021. The
petitioner consents to this request.
I will have principal responsibility for preparing the brief in opposition to the petition. I
request this extension because my colleagues and I have a large number of pressing deadlines
that, absent an extension, will prevent us from devoting adequate time to this brief. Our
upcoming deadlines include, among others: a response brief due on September 10 in Abbott v.
Du Pont, No. 21-3418, in the Sixth Circuit; a response to a 23(f) Petition due on September 13
in Postpichal v. Cricket Wireless, No. 21-80094, in the Ninth Circuit; an oral argument on
September 20 in Hood v. American Auto Care, No. 20-1157, in the Tenth Circuit; an amicus
brief due on September 21 in NYSRPA v. Bruen, No. 20-843, in this Court; a reply brief due on
September 22 in Schell v. Volkswagen, No. 20-17480, in the Ninth Circuit; a reply brief due on
September 23 in Cohen v. Apple, No. 20-17307, in the Ninth Circuit; a reply brief due on
September 23 in Mey v. DirecTV, No. 21-1274, in the Fourth Circuit; an opening brief due on
September 27 in Valiente v. Swift Transportation, No. 21-55456, in the Ninth Circuit; an
opening brief due on September 29 in Clarkson v. Alaska Airlines, No. 21-35473, in the Ninth
Circuit; and an opening brief due on September 30 in Page v. Alliant Credit Union, No. 211983, in the Seventh Circuit.
A 30-day extension is necessary to enable us to balance these other responsibilities with
our obligations in this case.
Thank you for your attention to this matter.
Sincerely,
Jennifer Bennett
Gupta Wessler PLLC
2001 K Street, NW, Suite 850 North, Washington, DC 20006
P 202 888 1741 F 202 888 7792
guptawessler.com

cc: Counsel of Record

Gupta Wessler PLLC
2001 K Street, NW, Suite 850 North, Washington, DC 20006
P 202 888 1741 F 202 888 7792
guptawessler.com

